No. _ __

~n tbe $,Upreme QI:ourt of tbe mniteb $)tates
Ernest L. Francway, Jr.,

Petitioner,
V.

Robert Wilkie, Secretary of Veterans Affairs,

Respondent.
CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.l(h), I declare that the Petition for a
Writ of Certiorari filed on behalf of Petitioner Ernest L. Francway, Jr. contains 8,988
words, excluding parts of the document that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 6th day of November 2019.

MICHAELE. JOFFRE
STERNE KESSLER GOLDSTEIN & Fox, PLLC
1100 NEWYORKAVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Petitioner

